APPENDIX

1a
APPENDIX A
NOT FOR PUBLICATION
IN THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
_____________________________
No. 18-16600
_____________________________
D.C. Docket No. 2:17-cv-02237-JCM-VCF
ETHAN VOLUNGIS; FAROOQ ABDULLA; NIGHAT
ABDULLA,
Plaintiffs-Appellants,
v.
LIBERTY MUTUAL FIRE INSURANCE COMPANY,
Defendant-Appellee.
_____________________________
Appeal from the United States District Court
for the District of Nevada
James C. Mahan, District Judge, Presiding
_____________________________
(April 2, 2020)
[808 F. App’x 414 (9th Cir. 2020)]
Before: W. FLETCHER, BYBEE, and WATFORD,
Circuit Judges.

2a
After Appellant Ethan Volungis was injured in a
car accident caused by Farooq Abdulla, he contacted
Abdulla’s insurer, Appellee Liberty Mutual Fire Insurance Company, offering not to pursue civil action
against Abdulla in exchange for payment of the full
limit of Abdulla’s policy and several other conditions.
Liberty Mutual responded by offering to pay the full
policy limit, but did not meet Volungis’s other conditions. Volungis then sued Abdulla in Nevada state
court, ultimately receiving a jury verdict of over $6
million. Abdulla eventually assigned to Volungis all
of his rights against Liberty Mutual arising out of its
handling of Volungis’s claim. In exchange, Volungis
agreed not to execute on Abdulla’s assets to satisfy the
judgment.
Volungis then sued Liberty Mutual, alleging
breach of contract, breach of the implied covenant of
good faith and fair dealing, and violations of Nevada’s
Unfair Claims Practices Act. The district court dismissed Volungis’s complaint with prejudice without
considering whether Volungis could have cured the
deficiencies in his complaint by amending it. While
dismissal was proper, Volungis should have been
given an opportunity to amend. We therefore affirm
dismissal, but reverse to the extent that dismissal was
with prejudice, and remand to allow Volungis the
chance to amend.
1. Volungis’s claim for breach of contract arises out
of Liberty Mutual’s failure to settle his claim against
Abdulla. But under Nevada law, the duties that arise
under the implied covenant of good faith and fair dealing—like the duty to settle—are imposed by law and
not the terms of the insurance contract. Allstate Ins.
Co. v. Miller, 212 P.3d 318, 330 (Nev. 2009) (en banc).
There is no independent unwritten contractual duty

3a
to settle. Therefore, claims for failure to settle sound
in tort, not contract, and this claim fails as a matter
of law.
2. Under Nevada law, the implied covenant of good
faith and fair dealing arises out of every contractual
relationship and “prohibits arbitrary or unfair acts by
one party that work to the disadvantage of the other.”
Nelson v. Heer, 163 P.3d 420, 427 (Nev. 2007). An
insurer breaches this duty when it refuses to compensate covered losses even though it has “an actual or
implied awareness of the absence of a reasonable basis for denying benefits of the policy.” Am. Excess Ins.
Co. v. MGM Grand Hotels, Inc., 729 P.2d 1352, 1354–
35 (Nev. 1986) (per curiam).
Volungis alleges that Liberty Mutual breached
the implied covenant in two ways: (1) failing to settle
his claim against Abdulla, and (2) failing to communicate his settlement offer to Abdulla. Volungis’s first
theory fails because he has failed to allege any unreasonable or arbitrary conduct on Liberty Mutual’s part.
See Miller, 212 P.3d at 324, 326. He does not allege
that Liberty Mutual countered his settlement offer in
bad faith or without a reasonable basis. Volungis
raises several arguments before this court about
whether Liberty Mutual could have easily obtained
the information he requested with his settlement offer
and Liberty Mutual’s understanding of Volungis’s
need to obtain that information, but none of those allegations appear in the complaint.
Volungis’s second theory fails because he does not
allege that Liberty Mutual failed to communicate his
initial settlement offer to Abdulla. To the extent that
Volungis argues that this theory is premised on Lib-

4a
erty Mutual’s failure to communicate a second settlement offer to Abdulla, that contention is not clear from
the face of the complaint.
3. Volungis’s claim for violations of Nevada’s Unfair
Claims Practices Act offers no supporting facts outside of reciting the language of several subsections
without citation. That alone is sufficient grounds for
dismissal. See Ashcroft v. Iqbal, 556 U.S. 662, 678
(2009) (holding that mere recitation of the elements of
a cause of action is insufficient to state a claim).
4. Federal Rule of Civil Procedure 15(a)(2) requires
district courts to “freely give leave [to amend] when
justice so requires.” This policy is “to be applied with
extreme liberality.”
Eminence Capital, LLC v.
Aspeon, Inc., 316 F.3d 1048, 1051 (9th Cir. 2003) (per
curiam) (quotation omitted). “[A] district court should
grant leave to amend even if no request to amend the
pleading was made, unless it determines that the
pleading could not possibly be cured by the allegation
of other facts.” Lopez v. Smith, 203 F.3d 1122, 1127
(9th Cir. 2000) (en banc) (internal quotation marks
omitted). Amendment is futile only if no set of facts
can be proven under the amendment that would constitute a valid and sufficient claim. Miller v. RykoffSexton, Inc., 845 F.2d 209, 214 (9th Cir. 1988).
The district court dismissed Volungis’s complaint
with prejudice without any discussion about whether
amendment should be permitted. While his breachof-contract claim fails as a matter of law, his other
claims could be cured through amendment. It was an
abuse of discretion to dismiss these claims with prejudice and no justification for doing so. See Doe v.
United States (In re Doe), 58 F.3d 494, 497 (9th Cir.
1995).

5a
We therefore affirm dismissal of the breach-ofcontract claim with prejudice, but reverse the dismissal of Volungis’s other claims to the extent that they
were dismissed with prejudice, and remand to allow
Volungis an opportunity to file an amended complaint.
AFFIRMED IN PART, REVERSED IN PART,
AND REMANDED.

6a
APPENDIX B
IN THE UNITED STATES DISTRICT COURT
DISTRICT OF NEVADA
Case No: 2:17-cv-2247 JCM (VCF)
ETHAN VOLUNGIS, et al.,
Plaintiff(s),
v.
LIBERTY MUTUAL FIRE
INSURANCE COMPANY,
Defendant(s).
ORDER
Presently before the court is defendant Liberty
Mutual Fire Insurance’s (“Liberty Mutual”) motion to
dismiss. (ECF No. 5). Plaintiffs Farooq Abdulla (“Mr.
Abdulla”), Nighat Abdulla, and Ethan Volungis filed
a response (ECF No. 12), to which Liberty Mutual replied (ECF No. 13).
I.

Facts

On July 2, 2013, Volungis and Mr. Abdulla were
involved in a motor vehicle accident. (ECF No. 1, Ex.
1). At the time of the accident, Mr. Abdulla was insured under a personal automobile insurance policy
issued by Liberty Mutual with limits of $100,000 per
person/$300,000 per accident (“the policy”).
Id.
Volungis sustained serious bodily injuries as a result
of the accident. Id.

7a
On February 14, 2014, Volungis’s attorney mailed
a policy limit demand for $100,000 to Liberty Mutual.
Id. at 3. The demand was expressly contingent upon
Volungis’s attorney receiving Liberty Mutual’s acceptance, in writing, by 5:00 p.m. on March 14, 2014,
or the offer would be withdrawn. Id. at 4. The demand was also conditioned upon Liberty Mutual
providing a copy of the Abdullas’ policy declaration
sheet, and a representation confirming that there was
no additional insurance coverage covering either the
owner or the driver of the subject vehicle. Id.
On March 14, 2014, Liberty Mutual mailed a letter to Volungis’s attorney providing a settlement and
release form. Id. Liberty Mutual did not provide
Volungis’s attorney with a copy of the Abdullas’ policy
declaration sheet or a representation confirming that
there was no additional insurance coverage. Id.
On March 26, 2014, Liberty Mutual drafted another letter to Volungis’s attorney confirming its settlement offer of $100,000. Id. The letter did not include a copy of the Abdullas’ policy declaration sheet
or a representation confirming that there was no additional insurance coverage. Id.
On June 20, 2014, Volungis filed his complaint
against Mr. Abdulla in the Eighth Judicial District
Court of Clark County, Nevada. Id. at 5. On July 2,
2014, Liberty Mutual contacted Volungis’s attorney
regarding Liberty Mutual’s agreement to settle for the
limits of the policy. Id. Volungis’s attorney responded
that Volungis was no longer willing to settle because
Liberty Mutual failed to provide a copy of the Abdullas’ policy declaration sheet or a representation
confirming that there was no additional insurance
coverage by the March 14, 2014, deadline. Id.

8a
On May 6, 2016, a jury found in favor of Volungis
on his personal injury claims against Mr. Abdulla,
awarding Volungis damages totaling $6,798,413.07.
Id. at 6. On October 31, 2016, the Abdullas filed for
bankruptcy protection. Id. at 7. Mr. Abdulla subsequently assigned to Volungis all assignable claims
that he has against Liberty Mutual, up to the total
amount of the judgment. Id. at 7-8.
On July 27, 2017, plaintiffs filed a complaint in
the Eighth Judicial District Court of Clark County,
Nevada, asserting four claims for relief. Id. On August 24, 2017, Liberty Mutual filed a petition for removal to this court. (ECF No. 1). In the instant motion, Liberty Mutual moves to dismiss plaintiffs’ complaint. (ECF No. 5).
II. Legal Standard
A court may dismiss a complaint for “failure to
state a claim upon which relief can be granted.” Fed.
R. Civ. P. 12(b)(6). A properly pled complaint must
provide “[a] short and plain statement of the claim
showing that the pleader is entitled to relief.” Fed. R.
Civ. P. 8(a)(2); Bell Atlantic Corp. v. Twombly, 550
U.S. 544, 555 (2007). While Rule 8 does not require
detailed factual allegations, it demands “more than labels and conclusions” or a “formulaic recitation of the
elements of a cause of action.” Ashcroft v. Iqbal, 556
U.S. 662, 678 (2009) (citation omitted).
“Factual allegations must be enough to rise above
the speculative level.” Twombly, 550 U.S. at 555.
Thus, to survive a motion to dismiss, a complaint must
contain sufficient factual matter to “state a claim to
relief that is plausible on its face.” Iqbal, 556 U.S.
662, 678 (citation omitted).

9a
In Iqbal, the Supreme Court clarified the two-step
approach district courts are to apply when considering
motions to dismiss. First, the court must accept as
true all well-pled factual allegations in the complaint;
however, legal conclusions are not entitled to the assumption of truth. Id. at 678–79. Mere recitals of the
elements of a cause of action, supported only by conclusory statements, do not suffice. Id. at 678.
Second, the court must consider whether the factual allegations in the complaint allege a plausible
claim for relief. Id. at 679. A claim is facially plausible when the plaintiff’s complaint alleges facts that allow the court to draw a reasonable inference that the
defendant is liable for the alleged misconduct. Id. at
678.
Where the complaint does not permit the court to
infer more than the mere possibility of misconduct,
the complaint has “alleged—but not shown—that the
pleader is entitled to relief.” Id. (internal quotation
marks omitted). When the allegations in a complaint
have not crossed the line from conceivable to plausible, plaintiff’s claim must be dismissed. Twombly, 550
U.S. at 570.
The Ninth Circuit addressed post-Iqbal pleading
standards in Starr v. Baca, 652 F.3d 1202, 1216 (9th
Cir. 2011). The Starr court stated, in relevant part:
First, to be entitled to the presumption of
truth, allegations in a complaint or counterclaim may not simply recite the elements of a
cause of action, but must contain sufficient allegations of underlying facts to give fair notice
and to enable the opposing party to defend itself effectively. Second, the factual allegations that are taken as true must plausibly

10a
suggest an entitlement to relief, such that it is
not unfair to require the opposing party to be
subjected to the expense of discovery and continued litigation.
Id.
III. Discussion
In the instant motion, Liberty Mutual moves to
dismiss plaintiffs four claims for relief: (1) breach of
contract; (2) breach of the implied covenant of good
faith and fair dealing; (3) violation of Nevada Revised
Statute § 686A.310; and (4) punitive damages pursuant to NRS § 42.005. (ECF No. 5). The court will analyze these claims separately.
a. Breach of contract
An insurance policy is a contract between a policyholder and an insurer in which the policyholder
agrees to pay premiums in exchange for financial protection from foreseeable, yet unpreventable, events.
Benchmark Ins. Co. v. Sparks, 254 P.3d 617, 620 (Nev.
2011) (citing 1 New Appleman Insurance Law Practice
Guide § 1.03[1] (Leo Martinez et al. eds., 2010)). As
such, the duties undertaken by the policyholder and
the insurer are defined by the terms of the policy itself. Id.
In a standard auto liability policy, such as the one
at issue here, the insurer generally undertakes two
duties in exchange for the policyholder’s premium
payments: (1) a duty to indemnify the policyholder for
damages he or she causes while driving, and (2) a duty
to defend the policyholder against any claims of liability brought against the policyholder in connection
with these damages. See United National Ins. Co. v.
Frontier Ins. Co., 99 P.3d 1153, 1156 (Nev. 2004). Be-

11a
cause the duties undertaken by an insurer are dictated by the terms of its contract with the policyholder, an insurer is free to contractually limit these
duties. Farmers Ins. Group v. Stonik, 867 P.2d 389,
391 (Nev. 1994). “In order for an insurer to effectively
limit its contractual obligations, the insurance policy’s
language must unambiguously convey the insurer’s
intent to do so.” Id.
The duty to indemnify arises when an insured “becomes legally obligated to pay damages in the underlying action that gives rise to a claim under the policy.” United National Ins. Co. 99 P.3d at 1157 (quoting Zurich Ins. Co. v. Raymark Industries, 514 N.E.
2d 150, 163 (Ill. 1987)). In other words, for an insurer
to be obligated to indemnify an insured, “the insured’s
activity and the resulting loss [must] actually fall
within the policy’s coverage.” Id. at 1158 (quoting
Outboard Marine v. Liberty Mut. Ins., 607 N.E. 2d
1204, 1221 (Ill. 1992)).
The duty to defend is broader than the duty to indemnify. Id. (citing Horace Mann Ins. Co. v. Barbara
B., 846 P.2d 792, 795 (Cal. 1993)). There is no duty to
defend “[w]here there is no potential for coverage.” Id.
(quoting Bidart v. American Title Ins. Co., 734 P.2d
732, 734 (Nev. 1987)). In other words, “[a]n insurer
. . . bears a duty to defend its insured whenever it ascertains facts which give rise to the potential liability
under the policy.” Id. (quoting Gray v. Zurich Ins. Co.,
419 P.2d 168, 177 (Cal. 1966)). Once the duty to defend arises, “this duty continues throughout the
course of the litigation.” Id. (quoting Home Sav. Ass’n
v. Aetna Cas. & Sur., 854 P. 2d 851, 855 (Nev. 1993)).
If there is any doubt about whether the duty to defend

12a
arises, this doubt must be resolved in favor of the insured. Aetna Cas. & Sur. v. Centennial Ins. Co., 838
F.2d 346, 350 (9th Cir. 1988).
However, “the duty to defend is not absolute.” Id.
A potential for coverage only exists when there is arguable or possible coverage. United National Ins. Co.,
99 P.3d at 1158 (citing Morton by Morton v. Safeco Ins.
Co., 905 F.2d 1208, 1212 (9th Cir. 1990)). Determining whether an insurer owes a duty to defend is
achieved by comparing the allegations of the complaint with the terms of the policy. Id. (citing Hecla
Min. Co. v. New Hampshire Ins. Co., 811 P.2d 1083,
1089-90 (Colo. 1991)).
Here, plaintiffs allege that “under Liberty Mutual’s insurance policy, Liberty Mutual promised to
pay all claims against Mr. Abdulla up to the Abdullas’
applicable policy limit of $100,000. (ECF No. 1, Ex. 1
at 8).
Plaintiffs contend that “Liberty Mutual
breached the policy of insurance by intentionally and
knowingly refusing to settle Volungis’s claims against
Mr. Abdulla for the Abdullas’ liability policy limit.”
Id. In its motion to dismiss, Liberty Mutual argues
that the factual allegations in the complaint do not
support plaintiffs’ contention that Liberty Mutual
breached the policy. (ECF No. 5).
Plaintiffs’ allegation that Liberty Mutual
breached the insurance policy by “intentionally and
knowingly failing to settle” is improperly characterized as a breach of contract claim. See (ECF No. 1, Ex.
1). The implied covenant, rather than the insurance
policy itself, requires the insurer to settle the case
within the policy limit when there is a substantial
likelihood of recovery in excess of the limit. See Kelly
v. CSE Safeguard Ins., No. 2:08-cv-0088-KJD-RJJ,

13a
2011 WL 4526769, at *4 (D. Nev. Sept. 27, 2011) (citing Murphy v. Allstate Ins. Co., 553 P.2d 584, 586 (Cal.
1976)). The duty to settle is “implied in law to protect
the insured from exposure to liability in excess of coverage as a result of the insurer’s gamble – on which
only the insured might lose.” Id. Accordingly, the
court will dismiss plaintiffs’ breach of contract claim.
See id.
b. Breach of the implied covenant of good
faith and fair dealing
Insurance contracts contain an implied covenant
of good faith and fair dealing. Allstate Ins. Co. v. Miller, 212 P.3d 318, 324 (Nev. 2009). “The law, not the
insurance contract, imposes this covenant on insurers.” Id. (citing United States Fid. & Guar. Co. v. Peterson, 540 P.2d 1070, 1071 (Nev. 1975)). A violation
of the covenant gives rise to a bad-faith tort claim. Id.
The Nevada Supreme Court has defined bad faith
“as the actual or implied awareness of the absence of
a reasonable basis for denying [or delaying payment
of] benefits of the [insurance] policy.” Am. Excess Ins.
Co. v. MGM, 729 P.2d 1352, 1354-55 (Nev. 1986).
Therefore, Nevada’s definition of bad faith is: (1) an
insurer’s denial (or refusal to pay) an insured’s claim;
(2) without any reasonable basis; and (3) the insurer’s
knowledge or awareness of the lack of any reasonable
basis to deny coverage, or the insurer’s reckless disregard as to the unreasonableness of the denial. See Pioneer Chlor Alkali Co. v. National Union Fire Ins. Co.,
863 F. Supp. 1237, 1257 (D. Nev. 1994) (citing Am. Excess Ins. Co., 729 P.2d at 1354); see also Pemberton v.
Farmers Ins. Exc., 858 P.2d 380, 382 (Nev. 1993) (“[a]n
insurer fails to act in good faith when it refuses ‘without proper cause’ to compensate the insured for a loss
covered by the policy.”).

14a
Bad faith is established where the insurer acts unreasonably and with knowledge that there is no reasonable basis for its conduct. See Guar. Nat’l Ins. Co.
v. Potter, 912 P.2d 267, 272 (Nev. 1996) (citing Am.
Excess Ins. Co., 729 P.2d at 1354-55). “[A]n insured
can recover in tort against an insurer for the improper
handling of a claim only upon a showing that the insurer acted in bad faith . . . such a showing requires
something more than simple negligence.” Sierzega v.
Country Preferred Ins. Co., No. 2-13-cv-1267-JCMNJK, 2014 WL 1668630, at *5 (D. Nev. Apr. 25, 2014)
(quoting Adelman v. Associated Int’l Ins. Co., 108 Cal.
Rptr. 2d 788, 790 (Cal. Ct. App. 2001)).
The Nevada Supreme Court recently held that the
failure to adequately inform the insured about a reasonable settlement offer is a factor in a bad faith
claim. See Allstate Ins. Co., 212 P.3d at 325. “This
duty to adequately inform an insured arises from the
special relationship between the insured and the insurer, which is similar to a fiduciary relationship.” Id.
(citing Ainsworth v. Combined Ins. Co., 763 P.2d 673,
676 (Nev. 1988)). Although the Nevada Supreme
Court “has refused to adopt a standard where an insurance company must place the insured’s interests
over the company’s interests, the nature of the relationship requires that the insurer adequately protect
the insured’s interest.” Id. At a minimum, “an insurer must equally consider the insured’s interests
and its own.” Id.
Moreover, courts in this district have previously
held that an insurance company’s refusal to accept a
policy-limit settlement offer within an arbitrary time
span designated by plaintiff does not necessarily constitute bad faith. See, e.g., Sierzega, 2014 WL
1668630, at *4; Kalberer v. Am. Family Mut. Ins. Co.,

15a
No. 2:13-cv-2278-JCM-NJK, 2014 WL 4104102, at *3
(D. Nev. Aug. 19, 2014); Striegel v. Am. Family Mut.
Ins. Co., No. 2:13-cv-01338-GMN-VCF, 2015 WL
4113178, at *5 (D. Nev. July 7, 2015); Hicks v. Dairyland Ins. Co., No. 2:08-cv-1687-RCJ-PAL, 2010 WL
2541175, at *9 (D. Nev. 2010) aff’d, 441 F. App’x 463
(9th Cir. 2011); AAA Nevada Ins. Co. v. Vnih Chau,
808 F. Supp. 2d 1282, 1287 (D. Nev. 2010) aff’d in
part, dismissed in part on other grounds sub nom.
AAA Nevada Ins. Co. v. Chau, 463 F. App’x 627 (9th
Cir. 2011).
Here, plaintiffs allege that Liberty Mutual
breached the implied covenant because it: (1) failed to
investigate, evaluate, pay, or reasonably settle Volungis’s case against Mr. Abdulla; (2) failed to initiate a
reasonable investigation, a reasonable evaluation,
and communicate timely and meaningfully with the
Abdullas regarding Volungis’s claim against Mr. Abdulla; and (3) failed to protect the Abdullas’ interests
by failing to reasonably settle Volungis’s case against
Mr. Abdulla within the Abdullas’ liability policy limits. (ECF No. 1, Ex. 1 at 9).
The factual allegations contained in the complaint
do not indicate that Liberty Mutual’s conduct was unreasonable. See id. Liberty Mutual mailed a settlement and release form to Volungis’s attorney by the
imposed March 14, 2014, deadline. Id. at 4. Moreover, Liberty Mutual drafted a letter confirming its settlement offer on March 26, 2014. Id. Plaintiffs argue
that Liberty Mutual’s failure to “provide a copy of the
declaration page and provide a representation that
the Abdullas had no other insurance” by the March
14, 2014, deadline constitutes bad faith. (ECF No. 12
at 10). Yet, Liberty Mutual fulfilled its contractual
obligations by tendering a policy limit settlement offer

16a
on the March 14, 2014, deadline. See Pioneer, 863 F.
Supp. at 1257 (holding that bad faith requires that an
insurer deny or refuse to pay an insured’s claim).
Therefore, Liberty Mutual’s alleged failure to comply
with Volungis’s demands, especially given that Liberty Mutual tendered a settlement offer on the March
14, 2014, deadline, does not constitute bad faith. See
Guar. Nat’l Ins. Co., 912 P.2d at 272; Sierzega, 2014
WL 1668630, at *4; see also Grant v. State Farm Mut.
Auto. Ins. Co. 958 F.2d 377 (9th Cir. 1992) (quoting
State Farm Mut. Auto. Ins. Co. v. Crane, 266 Cal Rptr.
422 (1990)) (“[a] policy limits settlement offer was in
good faith as a matter of law”).
Insofar as plaintiffs contend that “Liberty Mutual
breached its duty by failing to inform Mr. Abdulla
about Volungis’s settlement offer” in their response,
this allegation is unsupported by the complaint. See
(ECF No. 12 at 16). Plaintiffs do not allege that Liberty Mutual failed to inform Mr. Abdulla about the
March 14, 2014, settlement offer in their complaint.1
See (ECF No. 1, Ex. 1). Rather, plaintiffs introduce
this allegation for the first time in their response. See
(ECF No. 12 at 17). The court cannot consider new
facts asserted in plaintiffs’ opposition to the motion to
dismiss. See Hal Roach Studios, Inc. v. Richard
Feiner & Co., 896 F.2d 1542, 1555 n.19 (9th Cir. 1990)
(“[g]enerally, a district court may not consider any
material beyond the pleadings in a ruling on a Rule
12(b)(6) motion”); see also Schneider v. California
1

Plaintiffs reference the allegation that Liberty Mutual
“failed to . . . communicate timely and meaningfully with the Abdullas’ regarding Volungis’s claim against Mr. Abdulla.” See
(ECF No. 12 at 17). This conclusory statement, unsupported by
factual allegations, is not entitled to a presumption of truth. See
Iqbal, 556 U.S. at 678.

17a
Dep’t of Corrections, 151 F.3d 1194, 1197 n.1 (9th Cir.
1998) (“The ‘new’ allegations contained in the inmates’ opposition, however, are irrelevant for Rule
12(b)(6) purposes. In determining the propriety of a
Rule 12(b)(6) dismissal, a court may not look beyond
the complaint to a plaintiff’s moving papers . . .”). Accordingly, because plaintiffs have failed to state a viable breach of the implied covenant of good faith and
fair dealing claim, the court will dismiss this cause of
action. See Iqbal, 556 U.S. at 678.
c. Violations of NRS § 686A.310
Liberty Mutual seeks dismissal of plaintiffs’ claim
for relief pursuant to NRS § 686A.310. (ECF No. 5).
Plaintiffs contend that they have sufficiently pled a
claim for violation of NRS § 686A.310. (ECF No. 12).
Here, plaintiffs base this claim on the same conduct alleged to support their breach of contract and
breach of the implied covenant causes of action. Plaintiffs note that “the facts alleged in the complaint
squarely implicate the claims handling practices of
Liberty Mutual . . . and the claim expressly incorporates all the prior allegations.” Id. at 19. Because this
claim is based on the same facts that resulted in dismissal of plaintiffs’ breach of contract and breach of
the implied covenant claims, the court will dismiss
plaintiffs’ NRS § 686A.310 claim. See Kelly, 2011 U.S.
Dist. LEXIS 111136, at *21 (D. Nev. Sept. 27, 2011);
see also Striegel, 2015 U.S. Dist. LEXIS 88653, at *16
(D. Nev. July 7, 2015).
d. Punitive damages
Punitive damages are not a legitimate basis for an
independent cause of action. See, e.g., Garcia v. Nevada Property 1, LLC, No. 2:14-cv-1707-JCM-GWF,
2015 WL 67019, at *4 (D. Nev. Jan. 6, 2015); Rowe v.

18a
Clark County School Dist., No. 2:16-cv-661-JCM-PAL,
2017 WL 2945718, at *3 (D. Nev. July 10, 2017). Accordingly, the court will dismiss this claim. See id.
IV. Conclusion
The court will grant the pending motion to dismiss. The remaining motion to stay (ECF No. 15) will
therefore be denied as moot.
Accordingly,
IT IS HEREBY ORDERED, ADJUDGED, and
DECREED that Liberty Mutual’s motion to dismiss
(ECF No. 5) be, and the same here is, GRANTED.
IT IS FURTHER ORDERED that Liberty Mutual’s motion to stay (ECF No. 15) be, and the same
hereby is, DENIED as moot.
The clerk shall enter judgment accordingly and
close the case.
DATED July 23, 2018.

__/s/ James C. Mahan
UNITED STATES DISTRICT JUDGE

19a
APPENDIX C
IN THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
Case No. 18-16600
D.C. No. 2:17-cv-02247-JCM-VCF
ETHAN VOLUNGIS; FAROOQ
ABDULLA; NIGHAT
ABDULLA,,
Plaintiffs-Appellants,
v.
LIBERTY MUTUAL FIRE
INSURANCE COMPANY,
Defendant-Appellee.
(May 22, 2020; ECF No. 52)
ORDER
Before W. FLETCHER, BYBEE, and WATFORD,
Circuit Judges.
The panel judges have voted to deny both the Appellants’ and the Appellee’s petitions for rehearing.
Judges W. Fletcher and Watford voted to deny the petitions for rehearing en banc, and Judge Bybee recommended denying the petitions for rehearing en banc.
The full court has been advised of the petitions for
rehearing en banc and no judge has requested a vote
on whether to rehear the matter en banc. Fed. R. App.
P. 35.

20a
Appellants’ petition for rehearing and petition for
rehearing en banc, filed April 30, 2020, is DENIED.
Appellee’s petition for rehearing and petition for rehearing en banc, filed April 14, 2020, is DENIED. Appellee’s request for publication of the disposition in
this case is also DENIED.

